APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Tenth Circuit
(November 14, 2019) . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order and
Final Judgment in the United States
District Court for the District of New
Mexico
(September 6, 2018) . . . . . . . . . . App. 24
Appendix C Letter from Dr. Scott Carroll to Mr.
Hunt
(November 15, 2012) . . . . . . . . . . App. 55
Appendix D Letter from Dr. Scott Carroll to Mr.
Hunt
(January 4, 2013) . . . . . . . . . . . . App. 57
Appendix E Affidavit of Mr. Hunt
(May 4, 2016). . . . . . . . . . . . . . . . App. 60
Exhibit D - Mr. Hunt’s First Rejected
Rewrite . . . . . . . . . . . . . . . . . . . . App. 69

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 18-2149
(D.C. No. 1:16-CV-00272-JCH-KK) (D. N.M.)
[Filed November 14, 2019]
_________________________________________
PAUL HUNT,
)
)
Plaintiff - Appellant,
)
)
v.
)
)
BOARD OF REGENTS OF THE
)
UNIVERSITY OF NEW MEXICO;
)
SCOTT CARROLL, M.D., in his
)
individual and official capacities;
)
JOHN DOE; JANE DOE, Members of the
)
Committee for Student Promotion and
)
Evaluation, in their individual and official )
capacities; TERESA A. VIGIL, M.D., in
)
her individual and official capacities;
)
PAUL ROTH, M.D., in his individual and
)
official capacities,
)
)
Defendants - Appellees.
)
------------------------------------------------------------- )
)
ELECTRONIC FRONTIER
)
FOUNDATION; THE JOSEPH L.
)

App. 2
BRECHNER CENTER FOR FREEDOM
OF INFORMATION; STUDENT PRESS
LAW CENTER; THE NATIONAL
COALITION AGAINST CENSORSHIP;
FOUNDATION FOR INDIVIDUAL
RIGHTS IN EDUCATION; CATO
INSTITUTE; PROFESSOR EUGENE
VOLOKH,

)
)
)
)
)
)
)
)
)
Amici Curiae.
)
_________________________________________ )
ORDER AND JUDGMENT*
_________________________________
Before HOLMES, O’BRIEN, and MATHESON,
Circuit Judges.
_________________________________
Paul Hunt filed this 42 U.S.C. § 1983 action against
the Board of Regents of the University of New Mexico
(UNM) and various administrators at the University of
New Mexico School of Medicine (UNMSOM), claiming
violations of his free speech rights under the First
Amendment and his due process rights under the
Fourteenth Amendment. The district court granted
*

After examining the briefs and appellate record, this panel has
determined unanimously that oral argument would not materially
assist in the determination of this appeal. See Fed. R. App. P.
34(a)(2); 10th Cir. R. 34.1(G). The case is therefore ordered
submitted without oral argument. This order and judgment is not
binding precedent, except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for
its persuasive value consistent with Fed. R. App. P. 32.1 and 10th
Cir. R. 32.1.

App. 3
summary judgment for the defendants. Exercising
jurisdiction under 28 U.S.C. § 1291, we affirm.1
BACKGROUND
In 2012, as a medical student at UNMSOM, Mr.
Hunt was subject to the policies of both UNM and
UNMSOM, including UNM’s Respectful Campus Policy
and UNMSOM’s Social Media Policy. The Respectful
Campus Policy noted, inter alia, that (1) “UNM strives
to foster an environment that reflects courtesy, civility,
and respectful communication because such an
environment promotes learning, research, and
productivity”; and (2) “a respectful campus
environment”—that is, one that “exhibits and
promotes” professionalism, integrity, harmony, and
accountability—is “a necessary condition for success in
teaching and learning, in research and scholarship, in
patient care and public service, and in all other aspects
of the University’s mission and values.” Aplt. App. at
42. The Social Media Policy addressed the use of “sites
like Facebook” and cautioned students, inter alia, to:
(1) “[e]xercise discretion, thoughtfulness and respect for
your colleagues, associates and the university’s
supporters/community”; and (2) “[r]efrain from

1

We previously entered an order provisionally granting motions
for leave to file amicus curiae briefs by (1) the Joseph L. Brechner
Center for Freedom of Information, the Student Press Law Center,
the Electronic Frontier Foundation, and the National Coalition
Against Censorship; and (2) the Foundation for Individual Rights
in Education, the Cato Institute, and Professor Eugene Volokh. We
now make permanent the provisional order and grant the amici’s
motions.

App. 4
engaging in dialogue that could disparage colleagues,
competitors, or critics.” Id. at 41.
Shortly after the presidential election in November
2012, Mr. Hunt, then twenty-four years old, posted the
following comment on his personal Facebook page:
All right, I’ve had it. To all of you who support
the Democratic candidates:
The Republican Party sucks. But guess what.
Your party and your candidates parade their
depraved belief in legal child murder around
with pride.
Disgusting, immoral, and horrific. Don’t
celebrate Obama’s victory tonight, you sick,
disgusting people. You’re abhorrent.
Shame on you for supporting the genocide
against the unborn. If you think gay marriage or
the economy or taxes or whatever else is more
important than this, you’re fucking ridiculous.
You’re WORSE than the Germans during WW2.
Many of them acted from honest patriotism.
Many of them turned a blind eye to the genocide
against the Jews. But you’re celebrating it.
Supporting it. Proudly proclaiming it. You are a
disgrace to the name of human.
So, sincerely, fuck you, Moloch worshiping
assholes.
Id. at 37-38.

App. 5
On November 15, 2012, Scott Carroll, MD, Chair of
UNMSOM’s Committee on Student Promotions and
Evaluation (CSPE), sent a letter to Mr. Hunt, stating
the Dean of Students was referring him to CSPE due to
alleged unprofessional conduct relating to the Facebook
post. Dr. Carroll stated that Mr. Hunt had “every right
to [his] political and moral opinions and beliefs” but
that “there is still a professionalism standard that
must be maintained as a member of the UNM medical
school community.” Id. at 93. He then quoted the
following excerpt from UNM’s Respectful Campus
Policy:
Individuals at all levels are allowed to discuss
issues of concern in an open and honest manner,
without fear of reprisal or retaliation from
individuals above or below them in the
university’s hierarchy. At the same time, the
right to address issues of concern does not grant
individuals license to make untrue allegations,
unduly inflammatory statements or unduly
personal attacks, or to harass others, to
violate confidentiality requirements, or engage
in other conduct that violates the law or the
University policy.
Id. (emphasis in original) (italics and internal
quotation marks omitted). After noting this policy
“applied to communication through social media outlets
such as Facebook[,] as stated in the UNMSOM Social
Media Policy,” he quoted from the latter: “UNMSOM
does not routinely monitor personal websites or social
media outlets” but “any issues that violate any
established UNM Policy will be addressed,” and

App. 6
“[v]iolation of this or any UNM policy may result in
disciplinary action, up to and including dismissal from
UNM.” Id. (italics and internal quotation marks
omitted). Finally, the letter stated that CSPE would
address “the allegations at its November 20th meeting”
and that Mr. Hunt should “prepare a statement . . . and
be prepared to answer questions from the committee
members.” Id.
At the CSPE meeting, Mr. Hunt (1) read a
statement “acknowledging [his] ‘guilt’ and asking
CSPE for help to overcome [his] ‘deficiencies’”; and
(2) responded to questions from CSPE members. Id. at
88.
Two months later, Dr. Carroll informed Mr. Hunt
that CSPE found the Facebook post violated the
policies at issue and was imposing “a professionalism
enhancement prescription” consisting of an ethics
component and a professionalism component, each with
different faculty mentors. Id. at 95. For the ethics
component, the mentor would “assign readings and
supervise a reflective writing assignment on patient
autonomy and tolerance.” Id. The professionalism
component entailed: (1) a writing assignment on the
public expression of political beliefs by physicians;
(2) an apology letter that Mr. Hunt could present to his
“classmates, select individuals or no one”; (3) rewriting
the Facebook post in a passionate yet professional
manner; and (4) regular meetings with the faculty
mentor over the course of a one-year period. Id. CSPE
would need to approve final written products. Id.
Dr. Carroll also explained that the professionalism
violation would be noted in the Dean’s recommendation

App. 7
letter for Mr. Hunt’s residency applications, but that he
could “choose to petition CSPE to remove the notation
at some point in the future.” Id. Dr. Carroll cautioned
Mr. Hunt that (1) “any further professionalism lapses
will result in referral to CSPE and may result in
adverse action such as dismissal”; and (2) failure to
fulfill the requirements of the professionalism
prescription could result in “adverse action including
dismissal.” Id. at 95-96. The letter concluded by noting
Mr. Hunt had the right to “request review by the
Senior Associate Dean of Education” if he believed
CSPE’s decision was “fundamentally flawed, unfair or
otherwise inappropriate.” Id. at 96 (italics and internal
quotation marks omitted).
Mr. Hunt did not seek such review. Rather, over the
following year, he worked toward satisfying his
professionalism prescription, meeting with his mentors
and completing the written assignments. Mr. Hunt
alleged that either CSPE or his mentor did not approve
his first drafts but ultimately approved his second
attempts. And in his revised Facebook post, Mr. Hunt
“still expresse[d] [his] fervent opposition to abortion”
but in a “calm and rational” tone and with “no
expletives.” Id. at 125.
On April 22, 2014, Dr. Carroll informed Mr. Hunt
that he had satisfied the professionalism prescription
but cautioned that any future professionalism issues
would “be considered in light of [his] previous lapse in
professionalism.” Id. at 100. Dr. Carroll also reminded
Mr. Hunt of the need to request removal of the notation
from his Dean’s letter and “suggest[ed] waiting until
toward the end of Phase II” but before “the summer

App. 8
before the 4th year of medical school, early in Phase
III.” Id. Mr. Hunt anticipated completing Phase II “on
or about April 30, 2017.” Id. at 17.
In January 2016, Mr. Hunt filed suit in state court
against UNM’s Board of Regents, Dr. Carroll, members
of CSPE, and UNMSOM’s Dean, raising claims under
the First and Fourteenth Amendments and seeking
monetary damages and injunctive and declaratory
relief. The defendants removed the case to federal court
under 28 U.S.C. § 1331 and filed a motion to dismiss or
for summary judgment. The district court granted
summary judgment for the defendants. In particular,
the court: (1) dismissed the claims for damages against
the individual defendants in their official capacities
and the Board because they were not subject to suit
under § 1983; (2) found the individual defendants were
entitled to qualified immunity on Mr. Hunt’s free
speech claims because there was no clearly established
law prohibiting the defendants’ conduct; and (3) found
the individual defendants were entitled to qualified
immunity on Mr. Hunt’s due process claim because the
defendants’ conduct was not unconstitutional. Mr.
Hunt timely appealed.
DISCUSSION
The sole issues properly before this court are
whether, in addressing the defendants’ qualified
immunity defense to Mr. Hunt’s free speech claims, the
district court erred by (1) declining to address the

App. 9
constitutionality of the defendants’ actions; and
(2) determining the law was not clearly established.2
A. Standard of Review
This court “review[s] summary judgment decisions
de novo,” “view[ing] the evidence and draw[ing]
reasonable inferences therefrom in the light most
favorable to the nonmoving party.” Talley v. Time, Inc.,
923 F.3d 878, 893 (10th Cir. 2019) (internal quotation
marks omitted). Summary judgment is warranted

2

We do not consider Mr. Hunt’s due process claim because he did
not address it on appeal. See Coleman v. B-G Maint. Mgmt. of
Colo., Inc., 108 F.3d 1199, 1205 (10th Cir. 1997). We also decline
to address the argument by Mr. Hunt and the amici that the
governing policies were unconstitutionally vague and overbroad.
As Mr. Hunt conceded in his opening brief, “he did not fully brief
these arguments” in district court. Aplt. Opening Br. at 6. He
attempted to retract this concession in his reply brief by quoting
from his complaint and response to the summary judgment motion,
but (1) the content or context of the quoted passages plainly
demonstrates they concerned either his as-applied free speech
claims or his due process claim, not a facial challenge to the
policies themselves; and (2) he did not raise a First Amendment
facial challenge in his complaint. While we may consider an issue
raised for the first time on appeal, “the decision regarding what
issues are appropriate to entertain . . . in instances of lack of
preservation is discretionary.” Abernathy v. Wandes, 713 F.3d 538,
552 (10th Cir. 2013). Because the resolution of this issue is not
“beyond doubt” and does not involve “unusual circumstances,”
Lyons v. Jefferson Bank & Tr., 994 F.2d 716, 721 (10th Cir. 1993),
we decline to exercise our discretion to consider it. Finally, we
decline to address any issues raised by the amici but not by Mr.
Hunt, such as a compelled speech claim. See Corder v. Lewis
Palmer Sch. Dist. No. 38, 566 F.3d 1219, 1230 n.6 (10th Cir. 2009)
(declining to address a compelled speech argument raised in an
amicus brief).

App. 10
when “the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). To overcome a qualified immunity defense at the
summary judgment phase, a plaintiff must show:
“(1) that the defendant violated his constitutional . . .
right[], and (2) that the constitutional right was clearly
established at the time of the alleged unlawful
activity.” Estate of Reat v. Rodriguez, 824 F.3d 960, 964
(10th Cir. 2016) (internal quotation marks omitted).
Failure on either prong “is fatal to the plaintiff’s
cause.” Kerns v. Bader, 663 F.3d 1173, 1180 (10th Cir.
2011). “If, and only if, the plaintiff meets this two-part
test does a defendant then bear the traditional burden
of the movant for summary judgment—showing that
there are no genuine issues of material fact and that he
or she is entitled to judgment as a matter of law.”
Gutteridge v. Oklahoma, 878 F.3d 1233, 1238 (10th Cir.
2018) (internal quotation marks omitted).
B. First Prong
Mr. Hunt and the amici contend that (1) the district
court should have addressed the first prong of qualified
immunity; and (2) this court should address the first
prong. But the Supreme Court has afforded both
district courts and courts of appeals the discretion to
“decid[e] which of the two prongs of the qualified
immunity analysis should be addressed first.” Pearson
v. Callahan, 555 U.S. 223, 236 (2009). Indeed, the
Supreme Court has admonished courts to “think hard,
and then think hard again, before” addressing both
prongs of qualified immunity. Camreta v. Greene, 563
U.S. 692, 707 (2011). And we have found addressing

App. 11
both prongs “should be the exception” because of the
doctrine of constitutional avoidance. Kerns, 663 F.3d at
1180-81 (internal quotation marks omitted).
Off-campus, online speech by university students,
particularly those in professional schools, involves an
emerging area of constitutional law. See, e.g., Keefe v.
Adams, 840 F.3d 523, 529-33 (8th Cir. 2016) (finding no
First Amendment violation when a student was
suspended from a nursing program at a public college
for “on-line, off-campus Facebook postings” that the
school deemed unprofessional and in violation of
governing codes of conduct), cert. denied, 137 S. Ct.
1448 (2017). Accordingly, we find no fault with the
district court’s exercise of its discretion. And we, too,
decline Mr. Hunt’s request to address the first prong.
C. Second Prong
In confining its review to the second prong of the
qualified immunity analysis, the district court
determined that the law was not clearly established
and that defendants, therefore, were entitled to
qualified immunity. We agree.
“A right is clearly established when,” based upon
“the law at the time of the incident,” “it is sufficiently
clear that every reasonable official would have
understood that what he is doing violates that right.”
Estate of Reat, 824 F.3d at 964 (internal quotation
marks omitted). Because “qualified immunity protects
all officials except those who are plainly incompetent or
those who knowingly violate the law,” Apodaca v.
Raemisch, 864 F.3d 1071, 1076 (10th Cir. 2017)
(internal quotation marks omitted), “existing precedent

App. 12
must have placed the . . . constitutional question
beyond debate.” Kisela v. Hughes, 138 S. Ct. 1148, 1152
(2018) (per curiam) (internal quotation marks omitted).
“The dispositive question is whether the violative
nature of particular conduct is clearly established. This
inquiry must be undertaken in light of the specific
context of the case, not as a broad general proposition.”
Mullenix v. Luna, 136 S. Ct. 305, 308 (2015) (per
curiam) (internal quotation marks and citation
omitted).
“To make this determination, we consider either if
courts have previously ruled that materially similar
conduct was unconstitutional, or if a general
constitutional rule already identified in the decisional
law applies with obvious clarity to the specific conduct
at issue.” Estate of Reat, 824 F.3d at 964-65 (internal
quotation marks, emphases, and alteration omitted).
“[A] plaintiff may satisfy this standard by identifying
an on-point Supreme Court or published Tenth Circuit
decision; alternatively, the clearly established weight
of authority from other courts must have found the law
to be as the plaintiff maintains.” Cox v. Glanz, 800 F.3d
1231, 1247 (10th Cir. 2015) (internal quotation marks
omitted). “[C]learly established law should not be
defined at a high level of generality” but, instead,
“must be particularized to the facts of the case.” White
v. Pauly, 137 S. Ct. 548, 552 (2017) (per curiam)
(internal quotation marks omitted). “Otherwise,
plaintiffs would be able to convert the rule of qualified
immunity into a rule of virtually unqualified liability
simply by alleging violation of extremely abstract
rights.” Id. (alterations and internal quotation marks
omitted).

App. 13
Here, we are faced with a medical student’s free
speech challenge to sanctions from his school in
response to his off-campus, online speech. Based upon
the case law as of 2012-2013, which the parties agree
is the relevant time period, we cannot say that “every
reasonable official” in the position of the defendants
here would have known their actions violated the First
Amendment. Estate of Reat, 824 F.3d at 964 (internal
quotation marks omitted).
The Supreme Court first examined whether a high
school could prevent students from wearing arm bands
on campus to protest the Vietnam War. Tinker v. Des
Moines Indep. Cmty. Sch. Dist., 393 U.S. 503 (1969).
The Court noted students do not “shed their
constitutional rights to freedom of speech or expression
at the schoolhouse gate,” but recognized the rights
must be “applied in light of the special characteristics
of the school environment.” Id. at 506. In a divided
opinion, the Court held that schools can regulate
speech that “would materially and substantially
disrupt the work and discipline of the school,” id. at
513, or that intrudes upon “the rights of other
students,” id. at 508. The Court concluded that the
school could not prohibit the students’ “silent, passive
expression of opinion, unaccompanied by any disorder
or disturbance,” id. at 508, 514. Although the holding
encompassed speech occurring “in class or out of it,” id.
at 513, it is clear Tinker addressed on-campus speech
only, see id. at 512-13 (discussing speech “in the
classroom” and also “in the cafeteria, or on the playing
field, or on the campus during the authorized hours”).

App. 14
Three years later, the Court extended Tinker to the
university setting, although that case concerned official
recognition of a student group and not student
discipline. See Healy v. James, 408 U.S. 169, 180, 189
(1972). The Court noted: (1) “state colleges and
universities are not enclaves immune from the sweep
of the First Amendment”; and (2) “First Amendment
rights must always be applied ‘in light of the special
characteristics of the . . . environment’ in the particular
case.” Id. at 180 (quoting Tinker, 393 U.S. at 506).
Healy acknowledged a college may “expect that its
students adhere to generally accepted standards of
conduct,” id. at 192 (internal quotation marks omitted),
but it rejected the notion that “because of the
acknowledged need for order, First Amendment
protections should apply with less force on college
campuses than in the community at large,” id. at 180.
After Healy, the Court addressed a free speech
claim by a graduate-level journalism student expelled
under a policy prohibiting “indecent . . . speech” for
distributing on campus an underground newspaper
containing: (1) “a political cartoon . . . depicting
policemen raping the Statute of Liberty and the
Goddess of Justice”; and (2) “an article entitled ‘M----f----- Acquitted,’” referring to an assault trial. Papish v.
Bd. of Curators of the Univ. of Mo., 410 U.S. 667, 66768 (1973) (per curiam). After reiterating public colleges
are not immune from the First Amendment, the Court,
echoing Tinker, explained “in the absence of any
disruption of campus order or interference with the
rights of others, the sole issue was whether a state
university could proscribe this form of expression.” Id.
at 670 & n.6. A divided Court held “the mere

App. 15
dissemination of ideas—no matter how offensive to
good taste—on a state university campus may not be
shut off in the name alone of ‘conventions of decency.’”
Id. at 670.
After Papish, the Court seemingly tacked in a
different direction. First, in Bethel School District No.
403 v. Fraser, 478 U.S. 675, 677-78 (1986), the Court
addressed a free speech challenge by a student who
was suspended after giving a speech in which he
described another student with “an elaborate, graphic,
and explicit sexual metaphor.” Chief Justice Burger,
who dissented in Papish, authored the majority
opinion, which observed that schools have a
responsibility to teach “the shared values of a civilized
social order,” id. at 683, including that “the most
heated political discourse in a democratic society
requires consideration for the personal sensibilities of
the other participants and audiences,” id. at 681.
Finding “especially relevant” the contention in the
Tinker dissent that schools need not “surrender
control” to their students, id. at 686 (internal quotation
marks omitted), the Court held that schools may
restrict on-campus speech that is “lewd,” “vulgar,” or
“indecent,” even absent any disruption, id. at 685.
Two years later, the Court rejected a claim by high
school students that their school violated the First
Amendment by censoring articles about pregnancy and
divorce from the school newspaper. Hazelwood Sch.
Dist. v. Kuhlmeier, 484 U.S. 260, 262-73 (1988). After
finding “equally relevant” the portion of the Tinker
dissent quoted in Fraser, id. at 271 n.4, the Court
expressly refused to apply Tinker, see id. at 272-73.

App. 16
Instead, the Court held that schools may regulate
“student speech in school-sponsored expressive
activities,” which “members of the public might
reasonably perceive to bear the imprimatur of the
school,” “so long as their actions are reasonably related
to legitimate pedagogical concerns.” Id. at 271, 273.
The Court declined to decide whether the rule applied
at universities. Id. at 273 n.7.
Lastly, in Morse, the Court rejected a free speech
claim by a student who was suspended for waving a
banner that read “BONG HiTS 4 JESUS” at an offcampus, school-approved activity. Morse v. Frederick,
551 U.S. 393, 396-98 (2007). In a 5-4 decision, the
Court held: (1) “Tinker is not the only basis for
restricting student speech,” id. at 406; (2) the speech in
Fraser “would have been protected” had it been
“outside the school context,” id. at 405; and (3) a school
may “restrict student speech at a school event, when
that speech is reasonably viewed as promoting illegal
drug use,” id. at 402.
Like the Supreme Court, our student speech cases
mainly concern on-campus speech by K-12 students.3
3

See Taylor v. Roswell Indep. Sch. Dist., 713 F.3d 25, 35, 38 (10th
Cir. 2013) (finding no free-speech violation under Tinker where the
school prohibited the distribution of rubber fetus dolls based on a
“strong potential for substantial disruption”); Corder v. Lewis
Palmer Sch. Dist. No. 38, 566 F.3d 1219, 1222, 1228 (10th Cir.
2009) (finding no violation under Hazelwood where the school
required a student, in order to receive her diploma, to apologize for
discussing her religious views during her valedictory speech,
explaining that “discipline, courtesy, and respect for authority”
constitute legitimate pedagogical goals (internal quotation marks
omitted)); Fleming v. Jefferson Cty. Sch. Dist. R-1, 298 F.3d 918,

App. 17
We have extended Hazelwood to “speech that occurs in
a [university] classroom as part of a class curriculum.”
Axson-Flynn v. Johnson, 356 F.3d 1277, 1289 (10th Cir.
2004); see, e.g., Pompeo v. Bd. of Regents of the Univ. of
N.M., 852 F.3d 973, 988-90 (10th Cir. 2017) (upholding
qualified immunity where a university student was
“chastised” and told to rewrite a paper after “using
inflammatory language” in an assignment). But we
have not yet decided whether Hazelwood applies to
“university students’ extracurricular speech,” AxsonFlynn, 356 F.3d at 1286 n.6, or non-curricular speech.
Mr. Hunt insists that because Fraser, Hazelwood,
and Morse do not apply, “Tinker is the applicable
standard,” Aplt. Opening Br. at 18, and establishes
that his “right to free speech was violated,” id. at 21.
However, in Morse, Justice Thomas observed the Court
has not “offer[ed] an explanation of when [Tinker]
operates and when it does not,” Morse, 551 U.S. at 418
(Thomas, J., concurring), and the majority itself
922, 934 (10th Cir. 2002) (finding no violation under Hazelwood
where the school allowed students to decorate memorial tiles but
prohibited “religious symbols, the date of the shooting, or anything
obscene or offensive”); West v. Derby Unified Sch. Dist. No. 260,
206 F.3d 1358, 1366 (10th Cir. 2000) (finding no violation under
Tinker where the school prohibited the display of the Confederate
flag because it “might cause disruption and interfere with the
rights of other students to be secure and let alone”); Seamons v.
Snow, 84 F.3d 1226, 1237-38 (10th Cir. 1996) (holding the student
properly stated a free speech claim where the school denied him
“the ability to report physical assaults in the locker room,” finding
that the school’s “fear of a disturbance stemming from the
disapproval associated with [the student’s] unpopular viewpoint
regarding hazing in the school’s locker rooms” was insufficient
under Tinker).

App. 18
acknowledged “[t]here is some uncertainty at the outer
boundaries as to when courts should apply school
speech precedents,” id. at 401.
For example, it is inescapable that Tinker and its
progeny involved speech occurring on campus or as
part of a school-sanctioned activity. See Doninger v.
Niehoff, 527 F.3d 41, 48 (2d Cir. 2008) (“The Supreme
Court has yet to speak on the scope of a school’s
authority to regulate expression that . . . does not occur
on school grounds or at a school-sponsored event.”).
Additionally, none of the Court’s cases involved online
speech. See Aplt. Opening Br. at 21 (conceding the
Court has not “specifically addressed the scope of the
[F]irst [A]mendment rights of a university student’s
off-campus social media speech”). The Court held in
1997 that the First Amendment applied to the Internet,
see Reno v. ACLU, 521 U.S. 844, 849 (1997), but it only
recently addressed its application to social media, see
Packingham v. North Carolina, 137 S. Ct. 1730, 1735
(2017). Unsurprisingly, “[a] growing body of
scholarship [has] call[ed] for the Supreme Court to take
a case applying its school speech doctrine to a student’s
online speech.” Elizabeth Nicoll, University Student
Speech and the Internet: A Clusterf***, 47 NEW ENG. L.
REV. 397, 397 (2012). But as the Court has not taken
such a case, “First Amendment doctrine” “[a]t the
intersection of university speech and social media”
remains “unsettled.” Yeasin v. Durham, 719 F. App’x
844, 852 (10th Cir. 2018) (concluding the law was not
clearly established for a free speech claim by a student
expelled for off-campus, online speech that violated the

App. 19
university’s code of conduct and sexual-harassment
policy).4
Moreover, though at first blush they might appear
favorable to Mr. Hunt, even viewed in isolation, the
Supreme Court’s university cases of Healy and Papish
fail to supply clearly established law. Healy reiterated
Tinker’s warning that “First Amendment rights must
always be applied ‘in light of the special characteristics
of the . . . environment’ in the particular case.” Healy,
408 U.S. at 180 (quoting Tinker, 393 U.S. at 503).
Healy also acknowledged a college may “expect that its
students adhere to generally accepted standards of
conduct.” Id. at 192 (internal quotation marks omitted).
Requiring a graduate student to meet standards of
professionalism that would be expected of him upon his
entry into the profession is quite different from
restricting speech solely because of a generalized “need
for order,” Healy, 408 U.S. at 180, or “in the name
alone of ‘conventions of decency,’” Papish, 410 U.S. at
670. Healy and Papish appear to leave space for
administrators to operate as the circumstances demand
when confronted with speech by students in
professional schools that appears to be at odds with
customary professional standards. And neither decision
would have sent sufficiently clear signals to reasonable
medical school administrators that sanctioning a
student’s off-campus, online speech for the purpose of
instilling professional norms is unconstitutional.

4

We cite Yeasin, an unpublished case, for its persuasive value.
Fed. R. App. P. 32.1; 10th Cir. R. 32.1.

App. 20
Nor has Mr. Hunt shown that the clearly
established weight of authority from other circuits
supports his position. Mr. Hunt relies on a 2015 case
which noted that five out “‘of the six circuits to have
addressed whether Tinker applies to off-campus
speech . . . have held it does.’” Aplt. Opening Br. at 24
(quoting Bell v. Itawamba Cty. Sch. Bd., 799 F.3d 379,
393 (5th Cir. 2015) (en banc)). However, even though
Bell identified pre-2012 circuit precedent (including
from the Fifth), it is notable that its analysis revealed
a circuit split, 799 F.3d at 393, which belies a
suggestion of clearly established law. “If judges
disagree on a constitutional question, it is unfair to
subject [public officials] to money damages for picking
the losing side of the controversy.” Poolaw v.
Marcantel, 565 F.3d 721, 741 (10th Cir. 2009) (internal
quotation marks and ellipsis omitted).
Several decisions from the Third Circuit highlight
the lack of clarity at the time of the defendants’ actions
at issue. In 2010, that court found that “[p]ublic
universities have significantly less leeway in regulating
student speech than public elementary or high schools,”
but admitted that: (1) “it [was] difficult to explain how
this principle should be applied in practice”; (2) “it
[was] unlikely that any broad categorical rules will
emerge from its application”; and (3) “[a]t a minimum,
the teachings of Tinker, Fraser, Hazelwood, Morse, and
other decisions involving speech in public elementary
and high schools, cannot be taken as gospel in cases
involving public universities.” McCauley v. Univ. of
V.I., 618 F.3d 232, 247 (3d Cir. 2010).

App. 21
That court issued two decisions a year later that
failed to bring definiteness to this area of the law. See
J.S. ex rel. Snyder v. Blue Mtn. Sch. Dist., 650 F.3d
915, 920-31 (3d Cir. 2011) (en banc) (concluding a
middle school could not punish a student for creating
on her home computer a MySpace profile that mocked
her principal, noting the student took steps to make
the profile private and the school could not have
reasonably forecast a disruption); Layshock ex rel.
Layshock v. Hermitage Sch. Dist., 650 F.3d 205, 207-19
(3d Cir. 2011) (en banc) (concluding a high school could
not punish a student for a parody MySpace profile of
his principal that he created off campus but later
accessed on campus). The opinions found in favor of the
students but revealed a deep division over whether
Tinker applies off-campus, with six judges saying it
should, Snyder, 650 F.3d at 943 (Fisher, J., dissenting),
five disagreeing, id. at 940 (Smith, J., concurring), and
others insisting the “off-campus versus on-campus
distinction is artificial and untenable in the world we
live in today,” Layshock, 650 F.3d at 220 (Jordan, J.,
concurring) (internal quotation marks omitted). Two
judges feared the cases could “send an ‘anything goes’
signal to students, faculties, and administrators of
public schools.” Layshock, 650 F.3d at 222 (Jordan, J.,
concurring).
Mr. Hunt’s Facebook post also occurred months
after a state high court found a university had not
violated a mortuary science student’s free speech rights
when it imposed sanctions, including a writing
assignment, in response to Facebook posts the school
deemed, inter alia, unprofessional. Tatro v. Univ. of
Minn., 816 N.W.2d 509, 511-24 (Minn. 2012).

App. 22
Upholding the discipline, the court held “a university
may regulate student speech on Facebook that violates
established professional conduct standards,” provided
“any restrictions . . . [are] narrowly tailored and
directly related to established professional conduct
standards.” Id. at 521.
Against this backdrop, we conclude that the
Supreme Court’s K-12 cases of Tinker, Fraser,
Hazelwood, and Morse and its university cases of
Papish and Healy fail to supply the requisite on-point
precedent. Moreover, decisions from our court and
other circuits have not bridged the unmistakable gaps
in the case law, including whether: (1) Tinker applies
off campus; (2) the on-campus/off-campus distinction
applies to online speech; and (3) Tinker provides an
appropriate framework for speech by students in
graduate-level professional programs, such as medical
schools, cf. Salehpoor v. Shahinpoor, 358 F.3d 782, 787
& n.5 (10th Cir. 2004) (applying the public-employee
analysis to speech by a graduate-level engineering
student).
In the end, Mr. Hunt has “failed to identify a case
where [a medical school administrator] acting under
similar circumstances as [the defendants in this case]
was held to have violated the [First] Amendment.”
Pauly, 137 S. Ct. at 552. Mr. Hunt and the amici have
provided a patchwork of cases connected by broad legal
principles, but the law in late 2012 and 2013 would not
have given the defendants notice that their response to
the Facebook post was unconstitutional. See Anderson
v. Creighton, 483 U.S. 635, 640 (1987) (“The contours of
the right must be sufficiently clear that a reasonable

App. 23
official would understand that what he is doing violates
that right.”). Accordingly, the defendants were entitled
to qualified immunity.
CONCLUSION
For the foregoing reasons, the district court’s order
is affirmed.
Entered for the Court

Jerome A. Holmes
Circuit Judge

App. 24

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
Civ. No. 16-272 JCH/KK
[Filed September 6, 2018]
___________________________________
PAUL HUNT,
)
)
Plaintiff,
)
)
vs.
)
)
BOARD OF REGENTS OF THE
)
UNIVERSITY OF NEW MEXICO;
)
SCOTT CARROLL, M.D., in his
)
individual and official capacities;
)
JOHN DOE and JANE DOE
)
MEMBERS OF THE COMMITTEE
)
FOR STUDENT PROMOTION AND )
EVALUATION, in their individual
)
and official capacities,
)
TERESA A. VIGIL, M.D., in her
)
individual and official capacities;
)
PAUL ROTH, M.D., in his individual )
and official capacities,
)
)
Defendants.
)
___________________________________ )

App. 25
MEMORANDUM OPINION AND ORDER
This matter is before the Court on Defendants’
Motion to Dismiss or for Summary Judgment [Doc. 3].
In addition to the motion and supporting brief, the
Court has considered the Plaintiff’s response [Doc. 15]
the Defendants’ reply [Doc. 16], the evidence submitted
by the parties, and the relevant legal authorities. The
Court concludes that Defendants are entitled to
qualified immunity on Plaintiff’s constitutional claims
against them, and that the motion for summary
judgment should be granted.
FACTUAL AND PROCEDURAL BACKGROUND
The following facts are supported by the record and
viewed in the light most favorable to the Plaintiff.
In November of 2012, Plaintiff Paul Hunt was a
medical student at the University of New Mexico
School of Medicine (“UNMSOM”). Doc. 1-1 at 1.
UNMSOM has a Social Media Policy to address the use
of social media sites such as Facebook, Twitter,
YouTube and Flickr, which provides in pertinent part:
! Be mindful that all posted content is subject
to review in accordance with UNMSOM
policies and the Student Professional Code of
Conduct.
…
! Exercise discretion, thoughtfulness and
respect for your colleagues, associates and
the university’s supporters/community (social
media fans). Avoid discussing or speculating
on internal policies or operations. Refrain

App. 26
from engaging in dialogue that could
disparage colleagues, competitors, or critics.
! Refrain from reporting, speculating,
discussing or giving any opinions on
university topics or personalities that could
be considered sensitive, confidential or
disparaging.
…
! UNMSOM does not routinely monitor
personal websites or social media outlets,
however any issues that violate any
established UNM Policy will be addressed.
! Violation of this or an UNM policy may
result in disciplinary action, up to and
including dismissal from UNM.
Doc. 3-2.
The University of New Mexico has also adopted a
Respectful Campus Policy. It provides, in relevant part:
Individuals at all levels are allowed to discuss
issues of concern in an open and honest manner,
without fear of reprisal or retaliation from
individuals above or below them in the
university’s hierarchy. At the same time, the
right to address issues of concern does not grant
individuals license to make untrue allegations,
unduly inflammatory statements or unduly
personal attacks, or to harass others, to violate
confidentiality requirements, or engage in other

App. 27
conduct that violates the law or University
policy.
Doc. 3-3 at 2.
Shortly after the presidential election in November
of 2012, Hunt posted the following statement on his
personal Facebook page:
All right, I’ve had it. To all of you who support
the Democratic candidates: The Republican
Party sucks. But guess what. Your party and
your candidates parade their depraved belief in
legal child murder around with pride.
Disgusting, immoral, and horrific. Don’t
celebrate Obama’s victory tonight, you sick,
disgusting people. You’re abhorrent.
Shame on you for supporting the genocide
against the unborn. If you think gay marriage or
the economy or taxes or whatever else is more
important than this, you’re fucking ridiculous.
You’re WORSE than the Germans during WW2.
Many of them acted from honest patriotism.
Many of them turned a blind eye to the genocide
against the Jews. Bur you’re celebrating it.
Supporting it. Proudly proclaiming it. You are a
disgrace to the name of human.
So, sincerely, fuck you, Moloch worshipping
assholes.
Doc. 3-1. The Facebook post was not directed at any
individual, nor did it contain any reference to UNM or
UNMSOM. Doc. 15-1 at 1 ¶ 6.

App. 28
On November 15, 2012, Defendant Scott Carroll,
M.D. (“Carroll”) wrote a letter to Hunt informing him
that the Dean of Students had formally referred Hunt
to the Committee for Student Performance and
Evaluation (“CSPE”). The referral stemmed from
allegations of unprofessional conduct made by other
students against Hunt arising from his Facebook post.
Doc. 3-2 at 9. In the letter, Carroll stated, “[w]hile you
have every right to your political and moral opinions
and beliefs, there is still a professionalism standard
that must be maintained as a member of the UNM
medical school community.” Id. Carroll then quoted
from the UNM Respectful Campus Policy that states,
“the right to address issues of concern does not grant
individuals license to make untrue allegations, unduly
inflammatory statements or unduly personal attacks,
or to harass others . . .” Id. Finally, the letter informed
Hunt that “CSPE will be conducting an investigation
into the allegations at its November 20th meeting at
3pm [sic] and we would like you to prepare a statement
regarding the allegations and be prepared to answer
questions from the committee members.”
On November 20, 2012, Hunt appeared before the
CSPE, where he recognized members of the NMSOM
faculty, as well as some fellow students. Doc. 15-1 at 4,
¶ 17. He read a prepared statement acknowledging his
“guilt” and asking for help. Id. at ¶ 18. Then he
answered questions from members of the CSPE. Id. at
4.
On January 24, 2013, Carroll again wrote to Hunt
informing him that after the November 20th meeting,
the CSPE “substantiated that [Hunt’s] Facebook post

App. 29
was in fact unprofessional conduct due to violations of
the UNM Respectful Campus Policy (2240) and the
UNM School of Medicine Social Media Policy. Doc. 15-1
at 11. Carroll told Hunt that he would be given a twopart “professional enhancement prescription.” Id. The
first, focusing on ethics, involved mentorship by a
faculty member who would “assign readings and
supervise a reflective writing assignment on patient
autonomy and tolerance.” Id. The second, focused on
professionalism, was comprised of four parts: (1) a
reflective writing assignment on the public expression
of political beliefs by physicians, (2) an apology letter,
which Hunt could present to anyone of his choice, or no
one at all, (3) rewriting the Facebook post in a
passionate, yet professionally appropriate way, and
(4) ongoing meetings with Dr. Tim Nelson over a oneyear period. Id. Next, the letter informed Hunt that the
professionalism violation would be noted in the
recommendation letter the Dean would provide to
residency training programs, but that in the future
Hunt could petition CSPE to remove the notation. Id.
The letter stated the further professionalism lapses or
failure to fulfill any of the professionalism
requirements described in the letter could result in
adverse action, including dismissal from the
UNMSOM. Id. at 11-12. Finally, Carroll’s letter quoted
the UNMSOM Promotions and Due Process Policy,
informing Hunt that if he believed the CSPE’s decision
imposing corrective action was flawed, he could request
in writing that the Senior Associate Dean of Education
review the decision. Id. at 12. Hunt did not utilize the
review process. Doc. 3-2 at 2, ¶ 5.

App. 30
Over the next twelve months, Hunt met with his
“professionalism mentor,” Dr. Nelson, twelve times as
prescribed in the January 24, 2013 letter. Doc. 15-1 at
5, ¶ 25. In addition, Hunt rewrote his Facebook post as
required by CSPE; however, it rejected his first
attempt. Id. at ¶ 29; Doc. 15-1 at 12 (Ex. D). However,
the CSPE accepted Hunt’s second rewrite. Doc. 15-1 at
6, ¶ 30; Doc. 15-1 at 14 (Ex. E). The second rewrite still
expresses Hunt’s fervent opposition to abortion, but the
tone of the piece is calm and rational, and it contains
no expletives.
On April 22, 2014, Defendant Carroll notified Hunt
that his professionalism enhancement prescription was
completed but that “any future reports of
unprofessional behavior to CSPE will be considered in
light of your previous lapse in professionalism.” Doc.
15-1 at ¶ 31; Doc. 15-1 at 16 (Ex. F). Dr. Carroll also
noted, “If you would like this notation removed from
your Dean’s letter, you will need to submit a written
petition to CSPE requesting its removal at a future
date.” Id.
On January 15, 2016, Plaintiff Paul Hunt (“Hunt”)
filed his First Amended Complaint in the Second
Judicial District Court, Bernalillo County, New Mexico.
In Counts I, II, and III of his amended complaint, Hunt
asserts claims for violation of his First Amendment
rights (freedom of speech, viewpoint discrimination,
and retaliation, respectively). In Count IV, Hunt
asserts that his Fourteenth Amendment right to due
process was violated. Hunt asserts the first four counts
against the UNM Board of Regents, unnamed CSPE
members, and Carroll pursuant to 42 U.S.C. § 1983.

App. 31
Count V does not assert a cause of action, but rather
contains a request for declaratory judgment and
injunctive relief against the Board of Regents,
Defendant Teresa Vigil, M.D. (“Vigil”), and Defendant
Paul Roth, M.D. (“Roth”), presumably as a remedy for
the causes of action set forth in the first four counts.
Specifically, Hunt asks for a declaration that his
constitutional rights have been violated and an
injunction requiring Vigil, as the current interim chair
of the CSPE, to recommend to Roth, as Dean of the
School of Medicine, to remove all references to the
Facebook matter from Hunt’s permanent record. Doc.
1-1 at ¶ 57. Similarly, in Count VI Hunt does not assert
a cause of action but requests another remedy:
imposition of punitive damages against unnamed
CSPE members and Carroll.
On April 8, 2016, the Defendants removed the case
to this federal district court, asserting federal question
jurisdiction under 28 U.S.C. § 1331.
LEGAL STANDARD
Defendants have filed their motion as one to dismiss
for failure to state a claim under Fed. R. Civ. Pro.
12(b)(6), or in the alternative for summary judgment
under Fed. R. Civ. Pro. 56.
“A motion to dismiss pursuant to Rule 12(b)(6) is
treated as a motion for summary judgment when
premised on materials outside the pleadings, and the
opposing party is afforded the same notice and
opportunity to respond as provided in Rule 56.” Hall v.
Bellmon, 935 F.2d 1106, 1110-11 (10th Cir. 1991).
Here, Defendants have attached to their motion and

App. 32
asked the Court to consider affidavits, university
policies, and other matters outside the pleadings. Hunt,
in turn, has done the same in his response brief.
Accordingly, the Court will treat the motion as one for
summary judgment under Rule 56.
Summary judgment should be granted “if the
movant shows that there is no genuine issues as to any
material fact and the movant is entitled to judgment as
a matter of law.” Fed. R. Civ. P. 56(a). When the nonmoving party bears the burden of proof, as here,
summary judgment is warranted by demonstration of
an absence of facts to support the non-moving party’s
case. Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986).
When qualified immunity is involved, “a defendant
asserts a qualified immunity defense” then “the burden
shifts to the plaintiff, who must meet a heavy two-part
burden.” Medina v. Cram, 252 F.3d 1124, 1128 (10th
Cir. 2001)). The plaintiff first must establish that “the
officer’s conduct violated a constitutional right,” and
then the plaintiff must show that “the right was clearly
established.” Saucier v. Katz, 533 U.S. 194, 201 (2001).
DISCUSSION
I.

Constitutional Claims Against the Board of
Regents and the Individual Defendants In
Their Official Capacities

Section 1983 provides a claim for relief against “any
person who, under color of state law, deprives another
of rights protected by the Constitution.” Ellis ex rel.
Estate of Ellis v. Ogden City, 589 F.3d 1099, 1101 (10th
Cir. 2009). Defendants argue that Hunt’s claims for
money damages for alleged violations of his

App. 33
constitutional rights under 42 U.S.C. § 1983 against
the Board of Regents and the individual defendants in
their official capacities should be dismissed. The Court
agrees. As the Tenth Circuit and Supreme Court have
made clear, “Neither states nor state officers sued in
their official capacity are ‘persons’ subject to suit under
section 1983.” Duncan v. Gunter, 15 F.3d 989, 991
(10th Cir. 1994) (citing Will v. Michigan Dep’t of State
Police, 491 U.S. 58, 70-71 (1989)). Hunt therefore may
not seek damages from the Board of Regents or the
individual defendants in their official capacities, and
those claims will be dismissed. State officers sued in
their individual capacities, however, “are ‘persons’
subject to suit under section 1983.” Duncan, 15 F.3d at
991. Accordingly, the Court will consider Hunt’s claims
against the individual defendants in their individual
capacities for both monetary and injunctive relief.
While Hunt recognizes the unavailability of
damages against the Board of Regents and the
individual defendants in their official capacities, he
contends that he may still seek injunctive and
declaratory relief from the Board of Regents.
Defendants, in turn, argue that because Hunt has not
named the individual regents in his amended
complaint, he has failed to state a claim against a
person covered by Section 1983.1 The Court agrees with
Defendants. Hunt has not named any individual
members of the Board of Regents, but rather only the
Board itself. As explained above, the Board of Regents
1

Both sides recognize that, having agreed to the removal of the
case to federal district court, the Board of Regents has waived its
Eleventh Amendment immunity to suit in this Court.

App. 34
is an entity, not a “person” that may be held liable
under Section 1983. See McLaughlin v. Board of
Trustees of State Colleges of Colorado, 215 F.3d 1168,
1172 (10th Cir. 2000) (“Having sued only the Board
rather than the individual trustees, Mr. McLaughlin
has failed to state a claim against a person covered by
section 1983.”). Accordingly, the Board of Regents is
not subject to suit under § 1983, and Hunt’s claims
against the Board of Regents for injunctive and
declaratory relief will be dismissed for failure to state
a claim.
As a result of the foregoing discussion, what
remains are Hunt’s § 1983 claims in Counts I through
IV against Carroll, Vigil, and Roth in their individual
capacities.2 As previously discussed, Counts V and VI
do not assert causes of action, but rather request
particular remedies.

2

According to the First Amended Complaint [Doc. 1-1], Hunt
asserts his first four counts against “Board of Regents, CSPE
members, and Scott Carroll, M.D.” Hunt alleges that Defendant
Vigil “is the interim chair of the CSPE,” Id. at 4, ¶ 5, and therefore
the complaint can reasonably be read to assert his constitutional
claims in Counts I through IV against her. According to the First
Amended Complaint, Defendant Roth is the Dean of the
UNMSOM, that he “has the ultimate authority to remove all
references to the Facebook mater from Plaintiff’s academic record,”
and that he is a named defendant because “he has the ability to
provide prospective injunctive relief for Plaintiff.” Id. at ¶ 6. Thus,
it not clear that Hunt is asserting his constitutional claims against
Roth in his individual capacity. However, the parties do not
address this question in their briefs. Resolution of this issue not
being essential to the resolution of the motion, the Court will not
address it here.

App. 35
II.

First
Amendment
Claims
Against
Defendants In Their Individual Capacities

As explained above, the Defendants have raised the
defense of qualified immunity. As a result, Defendants
have shifted the burden to Hunt to demonstrate that
Defendants violated his First Amendment (freedom of
speech) and Fourteenth Amendment (due process)
rights, and that those rights were clearly established at
the time of the violation. Courts have discretion to
decide the order in which to engage in the two-prong
qualified immunity analysis. Tolan v. Cotton, ––– U.S.
––––, 134 S. Ct. 1861, 1866 (2014) (citing Pearson v.
Callahan, 555 U.S. 223, 236 (2009)). Here, the Court
exercises its discretion to address only the clearly
established prong of the standard as to the First
Amendment claim. The issue before the Court is
whether—assuming Carroll violated Hunt’s First
Amendment right to post on Facebook by subjecting
him to discipline—this right was clearly established in
late 2012 and in 2013, when that discipline was
imposed. As discussed below, the Court finds an
absence of controlling authority that specifically
prohibits Carroll’s conduct.
A. Clearly Established Law
Qualified immunity attaches when an official’s
conduct “‘does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.’” Mullenix v. Luna, 577 U.S. ––––,
136 S. Ct. 305, 308 (2015). “We do not require a case
directly on point, but existing precedent must have
placed the statutory or constitutional question beyond
debate.” Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011).

App. 36
In other words, immunity protects “‘all but the plainly
incompetent or those who knowingly violate the law.’”
Id. The Supreme Court very recently reminded us,
Today, it is again necessary to reiterate the
longstanding principle that ‘clearly established
law’ should not be defined at a high level of
generality. As this Court explained decades ago,
the clearly established law must be
‘particularized’ to the facts of the case.
Otherwise, [p]laintiffs would be able to convert
the rule of qualified immunity . . . into a rule of
virtually unqualified liability simply by alleging
violation of extremely abstract rights.”
White v. Pauly, 137 S. Ct. 548, 552 (2017) (internal
citations and quotations omitted).
B. Analysis
To the Court’s knowledge, at the time of the
disciplinary action at issue in this case, neither the
Supreme Court nor the Tenth Circuit had considered
whether graduate and professional schools specifically
(or universities generally) can regulate off-campus,
online speech by students that the university deems to
be unprofessional or which violate its applicable rules
of professionalism. Hunt has not provided any such
authority to the Court, nor has the Court been able to
locate any such authority.3 Rather, Hunt contends that

3

November of 2012 is the relevant time frame regarding the
clearly established law in this case. It appears that the U.S.
District Court for the District of Kansas, which encountered a
similar issue, also failed to find controlling Tenth Circuit or

App. 37
at the time it was clearly established that the Supreme
Court’s opinion in Tinker v. Des Moines Ind. Cnty. Sch.
Dist., 393 U.S. 503 (1969) prohibits Carroll’s conduct in
this case. The Court disagrees with Hunt’s analysis.
1. Tinker and Its Progeny Do Not Apply
Here
In Tinker, the plaintiffs were high school and
middle school students who planned to wear black
armbands to express their hostility to the Vietnam war
and their support for a truce. Id. at 504. The principals
at the plaintiffs’ schools learned of the plan and in
response adopted a policy prohibiting the armbands.
Id. Included in the policy was a provision that any
student who refused to remove a black armband would
be suspended until he or she returned without it. Id.
Despite knowing the policy, the plaintiffs wore their
armbands to school and were suspended accordingly.
Id. The Supreme Court found that the plaintiffs’ First
Amendment rights had been violated. Id. at 513-14.
The Court noted that a student’s First Amendment
rights are not limited to the classroom or to school
hours, but that student speech which “materially
disrupts classwork or involves substantial disorder or
invasion of the rights of others is, of course, not
immunized by the constitutional guarantee of freedom
of speech.” Id. at 513. The school authorities in Tinker
failed to show facts that might have reasonably led
Supreme Court authority during the 2013-2014 time frame. See
Yeasin v. Durham, 224 F.Supp.3d 1194, 1202 (D. Kan. 2016)
(“[N]either the Supreme Court nor a panel of the Tenth Circuit has
considered whether universities can regulate off-campus, online
speech by students.”).

App. 38
them to believe that wearing the armbands would lead
to substantial disruption of school activities, or that
any such disruption actually occurred. Id. at 514. Thus,
the school officials’ restraint of the plaintiffs’
expression violated the constitution. Id.
Hunt contends that it is Tinker’s “substantial
disruption” standard that applies in this case. Doc. 15
at 8, 12, 21. He contends that because his off-campus,
online speech did not cause disruption at UNMSOM,
Carroll was not entitled to regulate that speech. In
support of that argument, he relies on two Tenth
Circuit decisions, Seamons v. Snow, 84 F.3d 1226, 1237
(10th Cir. 1996) and Taylor v. Roswell Ind. Sch. Dist.,
713 F.3d 25, 35-36 (10th Cir. 2013). In Seamons, the
plaintiff was a high school student who was assaulted
by five of his football teammates in the locker room. Id.
at 1230. They grabbed him as he came out of the
shower and bound his naked body, including his
genitals, to a towel rack with adhesive tape. Id. The
plaintiff reported this assault to school administrators,
the principal, and the football coach, who then accused
him of “betraying the team by bringing the incident to
the attention of the administration” and requiring him
to apologize to the team. Id. When he refused, the
coach dismissed the plaintiff from the team. Id. The
teenager asserted that the school officials violated his
First Amendment right to freedom of speech by
discouraging him from making statements to the press
about the incident, and by removing him from the
football team because he refused to apologize for
informing authorities of the incident. Id. at 1236.
Relying on Tinker, the court concluded that the
plaintiff had properly stated a claim for violation of the

App. 39
First Amendment and that the school officials were not
entitled to qualified immunity:
Brian’s speech was responsibly tailored to the
audience of school administrators, coaches,
family and participants who needed to know
about the incident. Brian’s behavior neither
disrupted classwork nor invaded the rights of
other students. His speech was not part of a
school-sponsored expressive activity such that
listeners might believe that Brian’s speech had
the imprimatur of school sponsorship. We simply
see no overriding school interest in denying
Brian the ability to report physical assaults in
the locker room. At most, the school’s interest
here was based on its fear of a disturbance
stemming from the disapproval associated with
Brian’s unpopular viewpoint regarding hazing in
the school’s locker rooms. Under Tinker, that is
not a sufficient justification to punish Brian’s
speech in these circumstances.
Id. at 1238.
Like Seamons, Taylor also took place in a high
school setting. There, students sued the school district
and superintendent alleging that school officials
violated their First and Fourteenth Amendment rights
by preventing them from distributing 2,500 rubber
fetus dolls to other students. They also challenged the
school district’s policies requiring preapproval before
distributing any non-school-sponsored material on
school grounds. Taylor, 713 F.3d at 29. The defendants
presented evidence that the plaintiffs had distributed
about 300 of the dolls before they were stopped, and

App. 40
that the dolls had created significant disruption at the
school. Id. at 30-31. The Tenth Circuit noted that “this
case does not turn on whether the content of Plaintiffs’
message warrants First Amendment protection—there
is no question that it does. The record shows Plaintiffs
meant to convey a religious and political message when
they distributed the rubber dolls, and the Constitution
requires they be permitted to express these views at
school in some form.” Id. at 35. However, citing Tinker
(which the court noted applies to “student speech in
public schools”), id., the court concluded that the
plaintiffs’ free speech challenges failed because school
officials reasonably forecasted that the distribution
would cause substantial disruption, and because the
distribution did in fact cause substantial disruption. Id.
at 35, 38. The Tenth Circuit distinguished the
distribution of the dolls from the “silent, passive
expression that merely provokes discussion in the
hallway” that a school could not properly prohibit
under Tinker. Id. at 37. It further held that plaintiffs’
free exercise and equal protection claims failed because
the decision to stop the distribution was not based on
religion, and plaintiffs failed to show they were treated
differently from similarly situated students. Id. at 54.
Tinker, Seamons, and Taylor all address the free
speech rights of secondary school students on school
grounds, during school hours, or relating to a school
activity. These cases do not fit in the context presented
here, which is online speech by a university, graduate,
or professional school student which is alleged to
violate the school’s rules of professionalism. Although
law in this arena has been developing, the Court

App. 41
cannot conclude that it was clearly established at the
time the Defendants acted in this case.
2. Cases Addressing the Type of First
Amendment Claim Presented By
Hunt Were Not Clearly Established at
the Relevant Time
A government official violates clearly established
law when the contours of a right at the time of the
challenged conduct are sufficiently clear so that a
“reasonable official would understand that what he is
doing violates that right.” Panagoulakos v. Yazzie, 741
F.3d 1126, 1129 (10th Cir. 2013) (quoting Wilson v.
Montano, 715 F.3d 847, 852 (10th Cir. 2013)). A
plaintiff may establish this prong “by identifying an onpoint Supreme Court or published Tenth Circuit
decision; alternatively, ‘the clearly established weight
of authority from other courts must have found the law
to be as the plaintiff maintains.’ ” Cox v. Glanz, 800
F3d 1231, 1247 (10th Cir. 2015) (quoting Weise v.
Casper, 593 F.3d 1163, 1167 (10th Cir. 2010)). When
the clearly established requirement is “properly
applied, it protects ‘all but the plainly incompetent or
those who knowingly violate the law.’ ” Ashcroft v. alKidd, 563 U.S. 731, 743 (2011). Most recently, the
Supreme Court, in Mullenix v. Luna, explained that
“[t]he dispositive question ‘is whether the violative
nature of particular conduct is clearly established.’ This
inquiry ‘must be undertaken in light of the specific
context of the case, not as a broad general
proposition.’ ” 136 S.Ct. 305, 308 (2015) (citing
Brosseau v. Haugen, 543 U.S. 194, 198 (2004) (per
curiam) (quoting Saucier v. Katz, 533 U.S. 194, 201

App. 42
(2001))). It must have been clear to a reasonable person
in Defendant’s position “that [their] conduct was
unlawful in the situation [they] confronted.” Wood v.
Moss, 134 S. Ct. 2056, 2067 (2014).
There have been a few cases dealing with the right
to regulate online speech by university or professional
school students in an effort to enforce professional
standards or university policies, though none are
Supreme Court or Tenth Circuit cases that had been
published prior to late 2012 or in 2013, the relevant
time period in this case. Thus, they cannot be used to
demonstrate “clearly established law” within the
meaning of a qualified immunity analysis.
In one recent Eighth Circuit case, a nursing student
made statements on his personal Facebook page that
another student found threatening. Keefe v. Adams,
840 F.3d 523, 526 (8th Cir. 2016). The student talked
about his anger issues, giving someone a
hemopneumothorax (a trauma to the lung), and called
another student a “stupid bitch” for reporting his posts.
Id. at 527. After reading the posts, the schools Director
of Nursing became concerned and addressed the issue
with Keefe, who was not receptive to her concern that
the posts were unprofessional and attempted to
downplay them as jokes. Id. In the face of Keefe’s
inability to recognize that his posts were
unprofessional, the Director of Nursing decided to
remove Keefe from the program and told him that he
could appeal the decision. Id. She cited his violations of
the nursing program’s handbook, which stated that
“students who fail to meet the moral, ethical, or
professional behavioral standards of the nursing

App. 43
program are not eligible to progress in the nursing
program,” and that these included “transgression of
professional boundaries” and “behavior unbecoming of
the Nursing Profession.” Id. at 528. Further, the court
noted that the Nurse’s Association Code of Ethics
“precludes any and all forms of prejudicial actions, any
form of harassment or threatening behavior, or
disregard for the effect of one’s actions on others.” Id.
The Eighth Circuit rejected Keefe’s First
Amendment claim. It noted that “many courts have
upheld enforcement of academy requirements of
professionalism and fitness, particularly for a program
training licensed medical professionals. Fitness to
practice as a health care professional goes beyond
satisfactory performance of academic course work.” Id.
at 530. Thus, given the strong state interest in
regulating the health professions, the Eight Circuit
held that “teaching and enforcing viewpoint-neutral
professional codes of ethics are a legitimate part of a
professional school’s curriculum that do not, at least on
their face, run afoul of the First Amendment.” Id.
Furthermore, the court observed that a student may
demonstrate an unacceptable lack of professionalism
not only by conduct, but also by speech—including
online speech. Administrators in a professional school
may require compliance with applicable
professionalism standards, even for off-campus
activities, so long as their actions are reasonably
related to pedagogical concerns. Id. at 531.
Yeasin v. Durham, 224 F. Supp. 3d 1194 (D. Kan.
2016)—a case arising from within the Tenth Circuit—is
one in which a university punished a student for off-

App. 44
campus speech. Plaintiff Yeasin dated a fellow
university student until the summer of 2013, when
their relationship ended with a consent protection
order prohibiting Yeasin from having any contact with
his former girlfriend. Id. at 1199. Over a period of four
months, Yeasin sent out fourteen Tweets that
referenced but did not name his ex-girlfriend. That fall,
she complained to the university that the tweets
violated the no-contact order, and it agreed, warning
him via email that any further violation might result in
his expulsion. Id. In October of 2013, the university
determined that Yeasin had sexually harassed his exgirlfriend and had violated the Student Code of
Conduct. After a formal hearing, the university found
that Yeasin “had committed non-academic misconduct
based on the June 2013 incident, the threatening
statements made to [his ex-girlfriend], the tweets, and
violation of the No Contact Letter.” Id. at 1200. Finding
Yeasin’s conduct to be so severe, pervasive, and
offensive that it interfered with his ex-girlfriend’s
education, the university expelled him and banned him
from campus. The Yeasin court considered whether the
defendant, a university official, was entitled to
qualified immunity on Yeasin’s claim that his expulsion
for Twitter posts violated his First Amendment rights.
The court pointed out that not only do colleges have
a legitimate interest in preventing disruption on the
campus, the Tenth Circuit and other Federal Circuit
Courts of Appeals had found that less rigorous studentspeech standards apply to college students. Id. at 1202
(citing Keefe, supra, and Axson-Flynn v. Johnson, 356
F.3d 1277, 1286-90 (10th Cir. 2004). In finding that the

App. 45
law in this area was not clearly established in 2013, the
Yeasin court stated:
The law in this area is constantly developing,
and when Plaintiff was expelled in 2013, it was
even more unclear what standards applied. This
case can hardly be categorized as a clear case of
a content-based restriction in violation of the
First Amendment. Most importantly, circuit
courts have come to conflicting conclusions on
whether a school can regulate off-campus, online
student speech where such speech could
foreseeably cause a material disruption to the
administration of the school. The Tenth Circuit
has not addressed off-campus, online student
speech at the public school or university level.
224 F. Supp. 3d at 1202-03.
The lack of on-point legal authority that formed the
basis of qualified immunity in Yeasin also persists
here. During the period of late 2012 and into 2013,
when Carroll and other members of the CSPE imposed
corrective action on Hunt, there was no clearly
established law prohibiting their actions. Defendants
found that the inflammatory nature of Hunt’s Facebook
post violated university policies and as a result they
imposed additional training requirements and required
him to rewrite the post to express the same viewpoint,
but in a more professional manner. They also made a
notation of the incident in Hunt’s file. What precludes
a finding that Carroll violated clearly established due
process rights is the lack of prior decisions classifying
reprimands of professional students as academic or
disciplinary, and the lack of uniformity in the decisions

App. 46
that do exist. There was no controlling authority in this
Circuit or a “consensus of cases of persuasive
authority” in others on which the Defendants could
have relied to determine whether they should be held
to the standards of disciplinary, as opposed to
academic, dismissals. Wilson v. Layne, 526 U.S. 603,
617 (1999). Officials are not liable for bad guesses in
gray areas.
The absence of controlling authority that specifically
prohibited Carroll’s conduct is dispositive. The motion
for summary judgment on the basis of qualified
immunity will be granted.
III.

Fourteenth Amendment Procedural Due
Process Claim Against Defendants In Their
Individual Capacities

Hunt also argues that the Defendants imposed
discipline upon him in violation of his right to
procedural due process. He alleges that the Board of
Regents (now dismissed, as discussed in Part I, supra),
CSPE members (who are not named individually as
defendants in this case), and Defendant Carroll “failed
to provide any guidelines as to appropriate standards
for the hearing, or for the sanctions which were
imposed on Plaintiff.” Doc. 1-1 at ¶ 53. He further
alleges that he was not informed he was entitled to be
represented at the hearing, and that his “due process
rights were violated because he was subjected to
arbitrary and capricious government action, without
notice of what standards were in effect.” Id. at ¶ 54. He
contends that UNMSOM’s policies “were vague, and
contained no notice of the consequences of violating the
policies.” Id. The Court interprets this to be a claim

App. 47
that Carroll violated Hunt’s right to procedural due
process. After reviewing the law and the summary
judgment evidence, the Court concludes that Hunt has
failed to demonstrate that Carroll violated his
constitutional due process rights, and therefore he is
entitled to qualified immunity.
There are cases addressing the discipline of
students and the process to be afforded them. In Goss
v. Lopez, 419 U.S. 565, 581 (1975), the Supreme Court
addressed the academic suspension of students, holding
that even a short disciplinary suspension requires that
the student “be given oral or written notice of the
charges against him and, if he denies them, an
explanation of the evidence the authorities have and an
opportunity to present his side of the story.” In Bd. Of
Curators of Univ. of Missouri v. Horowitz, 435 U.S. 78,
80-82 (1978), a student was dismissed from medical
school following extensive review by a Council on
Evaluation in accordance with established university
procedures that did not include a pre-dismissal
hearing. The student argued that procedural due
process also required “the fundamental safeguards of
representation by counsel, confrontation, and cross
examination of witnesses.” Id. at 86 n.2. The Court
agreed that the university’s elaborate procedures had
complied with the procedural requirements of Goss. Id.
at 85. The Court further noted that “far less stringent
procedural requirements” apply to an “academic”
dismissal. Id. at 86. This dicta addressed a reality that
did not affect the Court’s procedural due process
decision in Horowitz—that academic dismissals,
though accompanied by extensive procedural
safeguards, often do not include a pre-dismissal face-to-

App. 48
face hearing between the student and academic
decision-makers.
The Court notes that, unlike in the cases above, the
discipline that UNMSOM imposed upon Hunt did not
extend to the level of a suspension or a dismissal.
UNMSOM’s “Due Process Policy and Procedure,” [Doc.
16-1], distinguishes between “adverse actions,” which
may include dismissal, suspension, or repetition of all
or part of the curriculum. Id. at Doc. 16-1, p. 1 of 6.
Conversely, “corrective actions” are less serious and
include “requiring a student to take a specified
course, … monitoring a student more closely by
placement on a ‘watch’ list, assigning an academic
advisor with whom the student is required to meet and
requiring a contract in which the student agrees to
take certain actions in order to continue in medical
school.” Id. Under this policy, it appears that
UNMSOM imposed a corrective action upon Hunt. The
policy further provides that while adverse actions may
be appealed, corrective actions such as those imposed
upon Hunt may not but rather upon the student’s
request may be reviewed by the Senior Associate Dean
of Education. Id. and id. at p.5 of 6. Hunt did not
request this review.
As the Supreme Court has stated, due process is
flexible and calls for such procedural protections as the
particular situation demands.” Mathews v. Eldridge,
424 U.S. 319, 334 (1976) (quotation omitted). When
conduct that leads to an adverse academic decision is
of a disciplinary nature, due process may require the
procedural protections of Goss v. Lopez in determining
whether the student was guilty of the misconduct in

App. 49
question. In this case, the Court concludes that Hunt,
like the student in Horowitz, was “awarded at least as
much due process as the Fourteenth Amendment
requires.” 435 U.S. at 85, 98 S.Ct. 948. First, Hunt was
given written notice of the charges against him.
Carroll’s November 15, 2012 letter to Hunt informed
him that his Facebook post regarding abortion and the
election had resulted in complaints of unprofessional
conduct from Hunt’s fellow students. Carroll’s letter
quoted from the UNM Respectful Campus Policy that
states, “the right to address issues of concern does not
grant individuals license to make untrue allegations,
unduly inflammatory statements or unduly personal
attacks, or to harass others . . .” Id. It also quoted from
the Respectful Campus Policy. Finally, the letter
informed Hunt that “CSPE will be conducting an
investigation into the allegations at its November 20th
meeting at 3pm [sic] and we would like you to prepare
a statement regarding the allegations and be prepared
to answer questions from the committee members.”
Thus, Hunt was informed in writing of the allegations
against him, as well as the basis for those allegations,
and the campus policies that he was alleged to have
violated. Second, Hunt was given a hearing where he
had an opportunity to present his side of the story and
to make his own position clear. On November 20, 2012,
Hunt appeared before the CSPE, where he recognized
members of the NMSOM faculty, as well as some fellow
students. Doc. 15-1 at 4, ¶ 17. He read a prepared
statement acknowledging his “guilt” and asking for
help. Id. at ¶ 18. Then he answered questions from
members of the CSPE. Id. at 4.

App. 50
Under Cleveland Bd. of Educ. v. Loudermill, 470
U.S. 532, 546 (1985), Goss, and Horowitz, this was all
the process that was due to Hunt. See Loudermill, 470
U.S. at 546 (concluding that procedural due process
entitles one to “oral or written notice of the charges
against him, an explanation of the employer’s evidence,
and an opportunity to present his side of the story.”).
Thus, there was no violation of Hunt’s constitutional
right to due process, and Carroll is entitled to qualified
immunity.4
4

Hunt also contends, at the conclusion of his argument regarding
procedural due process, that he was discriminated against and
punished based upon the content of his Facebook post, rather than
for violation of any university policy. Doc. 15 at 29. In support of
his argument, Hunt attaches copies of Facebook posts allegedly
made by other UNMSOM students who he asserts also violated
university policies but were not punished by the university. None
of those posts contains opinions in opposition to abortion, unlike
Hunt’s original post. See Doc. 15-2 at p. 1-5.
As a preliminary matter, the Court is not certain how this
argument regarding content discrimination relates to Hunt’s claim
for a violation of procedural due process. However, leaving aside
the specific legal claim to which it relates, a claim of content
discrimination must show that a similarly situated person was
treated differently than Hunt based on the content of their speech.
See, e.g., Pahls v.Thomas, 718 F.3d 1210, 1238 (10th Cir. 2013)
(“[P]urposeful discrimination requires more than intent as
awareness of consequences. It follows, under this standard, that if
the evidence shows only that a defendant is aware of disparate
treatment of two similarly situated groups—but nothing
more—then a § 1983 or Bivens claim for viewpoint discrimination
must fail as a matter of law.”) (internal citations and quotations
omitted). For a plaintiff to succeed, there must be additional
evidence—direct or circumstantial—that the defendant acted “for
the purpose of discriminating on account of” viewpoint. Ashcraft v.
Iqbal, 556 U.S. 662, 677 (2009).

App. 51
CONCLUSION
In light of the foregoing, the Court concludes that
Defendants are entitled to summary judgment on all of
Hunt’s claims against them. As explained above, the
Board of Regents is an entity, not a “person” that may
be held liable under Section 1983. Similarly, state
officers sued in their official capacities are not
“persons” subject to suit under section 1983. Defendant
Carroll in his individual capacity is entitled to qualified
immunity on Hunt’s First Amendment claims because
the law was not clearly established. In addition, Carroll
is entitled to qualified immunity on Hunt’s procedural
due process claim because Hunt failed to demonstrate
that his due process rights were violated. Finally,
because Defendants prevailed on Hunt’s substantive
claims, Hunt cannot assert a right against Defendants
Vigil and Roth for injunctive or declaratory relief, nor
against Carroll for punitive damages. Defendants’
motion will be granted.

Assuming for the sake of argument that the cited Facebook
posts from other UNMSOM students did violate the Respectful
Campus Policy or the Social Media Policy, just as Hunt’s allegedly
did, then Hunt might be able to prove a prima facie case of
viewpoint discrimination if he offered evidence that UNMSOM
knew about those posts but failed to address them. However, Hunt
comes forward with no evidence that any complaints about the
cited posts were ever made to UNMSOM or that Carroll or any
other university official knew about the posts. In the absence of
evidence that any official at UNMSOM knew about the posts, they
cannot be held liable for failing to address them in the same
manner that they addressed Hunt’s Facebook post.

App. 52
IT IS THEREFORE ORDERED that Defendants’
Motion to Dismiss or for Summary Judgment [Doc. 3]
is hereby GRANTED in its entirety.

s/_______________________________________
UNITED STATES DISTRICT JUDGE

App. 53
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
Civ. No. 16-272 JCH/KK
[Filed September 6, 2018]
___________________________________
PAUL HUNT,
)
)
Plaintiff,
)
)
vs.
)
)
BOARD OF REGENTS OF THE
)
UNIVERSITY OF NEW MEXICO;
)
SCOTT CARROLL, M.D., in his
)
individual and official capacities;
)
JOHN DOE and JANE DOE
)
MEMBERS OF THE COMMITTEE
)
FOR STUDENT PROMOTION AND )
EVALUATION, in their individual
)
and official capacities,
)
TERESA A. VIGIL, M.D., in her
)
individual and official capacities;
)
PAUL ROTH, M.D., in his individual )
and official capacities,
)
)
Defendants.
)
___________________________________ )
FINAL JUDGMENT
Having granted Defendants’ motion for summary
judgment in a Memorandum Opinion and Order
entered contemporaneously with this Final Judgment,

App. 54
IT IS HEREBY ORDERED that final summary
judgment is entered in favor of Defendants on all of
Plaintiff’s claims, which are dismissed with prejudice.

s/_______________________________________
UNITED STATES DISTRICT JUDGE

App. 55

APPENDIX C
November 15th, 2012
Paul Hunt
Address
Albuquerque, NM zip
Dear Mr. Hunt,
Dr. Espey, the Dean of Students, has formally
referred you to the Committee for Student Performance
and Evaluation (CSPE) due to allegations of
unprofessional conduct made by other students related
to a recent post you made on Facebook regarding your
opposition to abortion and the recent election results.
While you have every right to your political and moral
opinions and beliefs, there is still a professionalism
standard that must he maintained as a member of the
UNM medical school community. According to the
UNM Respectful Campus Policy (2240):
Individuals at all levels are allowed to discuss issues of
concern in an open and honest manner, without fear of
reprisal or retaliation from individuals above or below
them in the university’s hierarchy. At the same time, the
right to address issues of concern does not grant
individuals license to make untrue allegations, unduly
inflammatory statements or unduly personal
attacks, or to harass others, to violate confidentiality
requirements, or engage in other conduct that violates
the law or University policy.

App. 56
The Respectful Campus Policy also applies to
communication through social media outlets such as
Facebook as stated in the UNMSOM Social Media
Policy:
UNMSOM does not routinely monitor personal websites
or social media outlets, however any issues that violate
any established UNM Policy will be addressed.
Violation of this or any UNM policy may result in
disciplinary action, up to and including dismissal from
UNM.
CSPE will be conducting an investigation into the
allegations at its November 20th meeting at 3pm and
we would like you to prepare a statement regarding the
allegations and be prepared to answer questions from
the committee members. Please notify the Office of
Student Affairs by 5pm on Monday, November 19th, if
you are unable to attend the meeting. Please see the
attached copies of the Respectful Campus Policy and
the Social Media Policy.
Sincerely,
Scott Carroll, MD
Chair, CSPE
Cc: Student file

App. 57

APPENDIX D
January 4th, 2013
Paul Hunt
Address
Albuquerque, NM zip
Dear Mr. Hunt,
Thank you for attending the November 20th
meeting of the Committee for Student Promotion and
Evaluation (CSPE) to address allegations of
unprofessional conduct related to your Facebook posts
(see attached screen shots). After an extensive
discussion, the committee substantiated that your
Facebook post was in fact unprofessional conduct due
to violations of the UNM Respectful Campus Policy
(2240) and the UNM School of Medicine Social Media
Policy.
However, instead of dismissing you from the school
of medicine, the committee has chosen to impose a
professionalism enhancement prescription composed of
two components: an ethic component and a
professionalism component, each with its own mentor.
The ethics component, which will focus on patient
autonomy and the virtue of tolerance, will be mentored
by Cynthia Geppert MD PhD. Dr. Geppert will assign
readings and supervise a reflective writing assignment
on patient autonomy and tolerance. The final product
will be presented to the CSPE in two to four months.
CSPE will evaluate the final product to determine if it

App. 58
satisfies this component of your prescription. Please
contact Dr. Geppert at cgeppert@salud.unm.edu as
soon as possible to begin the prescription.
The professionalism component, which has four
parts, will be mentored by Tim Nelson, MD. Part one is
a reflective writing assignment on the public
expression of political beliefs by physicians with final
product presented to CSPE in a three to six month
timeframe. Part two is an apology letter, due to CSPE
in one month. You will then have the option of
presenting the apology letter to your classmates, select
individuals or no one as you choose. Part three is to
rewrite your original Facebook post in a passionate, but
professionally appropriate way with the final product
due to CSPE in a six to eight month time frame.
Finally, part four is to have ongoing meetings, at least
monthly, with Dr. Nelson for the next 12 months. All
written products will be submitted to CSPE within the
specified windows at which time CSPE will determine
if they satisfy this component of your prescription.
In addition, CSPE also voted to require notation of
your professionalism violation in your Dean’s
Recommendation Letter provided to residency training
programs. However, you may choose to petition CSPE
to remove the notation at some point in the future.
Also, please be aware that any future professionalism
lapses will result in referral to CSPE and may result in
adverse action such as dismissal from the UNM School
of Medicine. Further, if you fail to fulfill the ethics and
professionalism requirements set forth in this letter,
you may be subject to adverse action, including
dismissal from the School of Medicine.

App. 59
As noted in the UNMSOM Promotions and Due
Process Policy, “If the student believes that the decision
imposing corrective action (educational prescription) is
fundamentally flawed, unfair or otherwise
inappropriate, the student can request review by the
Senior Associate Dean of Education (Dr. Craig Timm).
The student shall present his or her reasons for
disputing the action in writing. The Senior Associate
Dean of Education may meet with the student and may
discuss the matter with members of the CSPE and other
faculty, as the Senior Associate Dean deems
appropriate. The decision of the Senior Associate Dean
of Education is final for the School of Medicine and for
the University of New Mexico.”
Sincerely,
Scott Carroll, MD
Chair, CSPE
Cc: Student file

App. 60

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
CIVIL NO. 16-272 MCA/KK
[Filed May 4, 2016]
____________________________________
PAUL HUNT,
)
)
Plaintiff,
)
vs.
)
)
BOARD OF REGENTS OF THE
)
UNIVERSITY OF NEW MEXICO;
)
SCOTT CARROLL, M.D., in his
)
individual and official capacities;
)
JOHN DOE AND JANE DOE
)
MEMBERS OF THE COMMITTEE, )
FOR STUDENT PROMOTION AND )
EVALUATION, in their individual
)
and official capacities; TERESA A.
)
VIGIL, M.D., in her individual and
)
official capacities; and PAUL ROTH, )
M.D., in his individual and official
)
capacities,
)
)
Defendants.
)
___________________________________ )

App. 61
AFFIDAVIT OF PAUL HUNT (No. 1)
STATE OF NEW MEXICO
COUNTY OF BERNALILLO
1.

)
) ss
)

I am the Plaintiff in this lawsuit.

2.
I am a medical student at the University of
New Mexico School of Medicine (SOM).
3.
In November, 2012, I was 24 years old. I was
a full time student at SOM.
4.
Following the United States presidential
election in November, 2012, I posted on my personal
Facebook account a statement which was critical of
celebration of President Obama’s re-election, critical of
the Republican Party, and critical of abortion. See
Exhibit A.
5.
The Facebook post was not directed at any
individual.
6.
The Facebook post contained no references to
the University of New Mexico, nor any references to
SOM. I did not identify myself as a student at UNM or
SOM.
7.
The Facebook post contained no threats
towards any person or organization.
8.
On November 15, 2012, I was in my tutorial
section for Genetics and Neoplasia, when a person from
the Health Science Center’s Registrar’s office escorted
me to the office of Eve Espey, MD. Dr. Espey was the
Associate Dean of Students for SOM.

App. 62
9.
Dr. Espey handed me a printed copy of my
Facebook post and demanded that I “explain this
posting.”
10.
I began to say that I wanted people to
understand how truly wrong abortion is.
11.
Dr. Espey cut me off and threatened to
suspend me “under [her] emergency powers as Dean of
Students.”
12.
Dr. Espey then advised that she received
three complaints from students who had apparently
read the Facebook post, and provided copies of the post
to her. She also advised that she had reported me to
the Committee on Student Performance Enhancement
(CSPE) as a second offender, based on a prior incident.
The prior occurrence, which took place two months
earlier, involved a discussion that began in an a clinical
class. Specifically, I had voiced my opinion that the
medical literature suggested that routine infant
circumcisions were not medically necessary procedures.
Following that class, I sent Dr. Stephanie Nevarez y
Fernandez, M.D., my preceptor for Foundations of
Clinical Practice who was teaching the class, an email
to explain my opinion regarding circumcision. Dr.
Nevarez y Fernandez apparently had been offended by
my email. Dr. Espey invited me to discuss the issue
and I sent a written apology, as requested by Dr.
Espey, to Dr. Nevarez y Fernandez. At the time, Dr.
Espey explicitly told me that I was “not in trouble,” and
that nothing official would be placed on my record
regarding this incident. I was surprised that Dr. Espey
intended to report me as a second offender to CSPE.

App. 63
13.
At the conclusion of my meeting with Dr.
Espey regarding the Facebook post, she told me I would
have to appear before CSPE. She said that CSPE might
expel me from SOM, suspend me from SOM, order
neuropsychological testing, or impose some other form
of punishment because of the Facebook post. A copy of
the letter dated November 15, 2014, indicating that
CSPE was conducting an investigation into the
Facebook post as a violation of both the UNM
Respectful Campus Policy and UNMSOM’s Social
Media policy, that I would have to appear at a hearing,
and that I should prepare a written statement, is
attached hereto as Exhibit B.
14.
Dr. Espey also cautioned me that if I
appeared before CSPE and argued the first amendment
(she referred to it as a “free speech angle”) that “things
will go very poorly” for me. Dr. Espey did not offer me
any information regarding sources of support or
assistance in dealing with CSPE. Rather, Dr. Espey
told me she has “immense sway” in how CSPE makes
its findings.
15.
Deeply concerned by this event, I sought out
Gregory Franchini, MD, a member of the SOM faculty,
to ask for his guidance. Dr. Franchini told me that
CSPE did not allow anyone to represent or accompany
a student who was in a CSPE hearing – not a lawyer,
not a faculty member, not a fellow student. He said I
would have to appear by myself and I should consider
writing a statement of apology that I could read at the
hearing. I also consulted with Mr. Bradley Singer, then
a third-year medical student, in his capacity as then
Student Chairman of the Committee for the

App. 64
Advancement of Professionalisms and Ethics (CAPE).
He advised me that the best course of action was to
“throw [myself] on [my] sword,” demonstrate remorse
and apologize to avoid any severe repercussions. I was
deeply concerned about the possible consequence of
being expelled or suffering some other consequence
that could affect my medical school education. As a
result, I consulted with Dr. Espey, Dr. Franchini, and
Mr. Singer in the drafting of the statement I would
read at the hearing. This appeared to be the best
course of action to avoid being penalized in any way
that would affect my ability to obtain a medical degree.
16.
On November 20, 2012, I appeared before
CSPE. While I was waiting, one of the administrative
staff asked me, “I’m sorry, I’m just curious – is this
where they decide whether or not you get to stay in
school? I often see students leaving crying.”
17.
When I entered the conference room there
were about twenty people seated around a large
conference table. I recognized some as SOM faculty and
some as SOM students.
18.
I read the statement I had written
acknowledging my “guilt” and asking CSPE for help to
overcome my “deficiencies”
19.
When I was finished, Victor Strasburger,
M.D. began the questioning. He asked me, “how do you
feel about Jews?”
20.
I was not aware that I would have to defend
myself against a charge of antisemitism. I answered his
question to the best of my ability, advising that I had
no such prejudice.

App. 65
21.
Dr. Strasburger then asked me how I felt
about African Americans. I again advised that I had no
such prejudice. Thereafter, I was asked a series of
questions related to my view on violence against
doctors who perform abortions and other abortionrelated subject matter.
22.
My appearance before CSPE lasted about
thirty to forty-five minutes.
23.
On January 24, 2013, the Chairman of CSPE,
Scott Carroll, M.D., notified me in writing that “the
committee substantiated that your Facebook post was
in fact unprofessional conduct due to violations of the
UNM Respectful Campus Policy (2240) and the UNM
School of Medicine Social Media Policy.” A copy of that
letter is attached hereto as Exhibit C. In sum the
letter states that instead of dismissing me from SOM,
the committee was imposing “a professionalism
enhancement prescription composed of two
components: an ethics component and a
professionalism component, each with its own mentor.”
Specifically, the ethics component required that I meet
with Cynthia Geppert, MD PhD for a period of two to
four months, during which time I would be assigned
readings and would ultimately be required to write a
“reflective” paper on patient autonomy and tolerance.
The letter indicated that the final product would be
presented to CSPE, who would determine whether the
paper satisfied this ethics requirement.
The professionalism requirement contained four
parts and would be mentored by Tim Nelson, M.D. : 1) I
was required to write a “reflective” paper on “public
expression of political beliefs by physicians, which

App. 66
would be presented to CSPE for its approval in a three
to six month time frame; 2) drafting of an apology letter
to CSPE which had to be submitted within one month;
3) rewriting of the Facebook post “in a passionate but
professionally appropriate way” which had to be
submitted to CSPE in a six to eight month time frame;
and 4) attend meetings on a monthly basis with Dr.
Nelson for a period of one year.
24.
In addition, the letter indicated that CSPE
had voted to require notation of a professionalism
violation in my Dean’s Recommendation Letter which
is a mandatory part of residency training program
applications, that I could petition its removal at some
unspecified future date, and that if I had any more
similar transgressions like the Facebook post, I would
be in danger of being expelled from SOM.
25.
After CSPE ordered me to undergo
“professionalism enhancement training,” I met twelve
times during the next twelve months with Timothy
Nelson, M.D., who was assigned to be my
“professionalism mentor.”
26.
Dr. Nelson told me that any attempt to
appeal the decision of CSPE would be fruitless.
27.
I was instructed to meet with Sally Fortner,
M.D., who would be another professionalism mentor.
She told me it would look good to CSPE if I took her
course, “Crucial Confrontations,” so I took her class.
28.
I was instructed to meet with Cynthia
Geppert, M.D., PhD in her office at the Veterans
Administration Hospital. She is an ethics advisor to
SOM. She was assigned to be one of my ethics mentors.

App. 67
She told me it was of no importance to her if SOM had
violated my constitutional rights. Instead, her focus
was to teach me how to comport myself as a
“professional.”
29.
In November, 2013 CSPE required me to rewrite the Facebook post. I met with Dr. Nelson and
Sheila Hickey, M.D. Dr. Hickey had succeeded Dr.
Espey as Associate Dean of Students. They approved
my re-write. CSPE rejected it. See Exhibit D.
30.
I re-wrote the re-write of the Facebook post,
and on April 22, 2014, Dr. Carroll notified me that
CSPE had accepted the re-write of the re-write. See
Exhibit E.
31.
On April 22, 2014, CSPE notified me that my
professionalism enhancement prescription was
completed.
32.
The same day, Dr. Carroll emailed me and
advised that I should not petition to have the notation
of professionalism violation removed from my student
file until I had completed Phase II of my medical
education and was ready to be promoted to Phase III.
A copy of that email is attached hereto as Exhibit F.
I expect to be promoted to Phase III in September,
2017. Therefore, based on what I have been told by
multiple faculty members (Dr. Carroll, Dr. Espey, Dr.
Hickey, and Dr. Fortner) who advised me not to
petition until Phase III is about to begin, I plan to
petition in August, 2017 and at the time ask that the
notation be removed. I do not know what the criteria or
standards are for removing the notation, because to the

App. 68
best of my knowledge the SOM and the University do
not publish these standards anywhere.
Further, Affiant sayeth not.
s/________________________
PAUL HUNT
SUBSCRIBED AND SWORN to before me this 29th
day of April, 2016, by PAUL HUNT, who is personally
known to me and\or made proper identification of
himself to me with an appropriate government issued
photo identification.
Seal

s/_________________
NOTARY PUBLIC

My commission expires: 3/24/2019

App. 69
EXHIBIT D
To the supporters of Democratic candidates;
I have many disagreements with the Republican
Party, and to be honest, I find some of their positions
as ill-conceived and detrimental as the most ardent
Democrat. However, I find myself disturbed in the
defense of the party and the rejoicing in its victory
tonight. This is, of course, because as one of its core
positions, the Democratic Party supports the legality of
the murder of children. This belief, by some, is worn
with shame. However, too often, supporters of the
Democrats parade their support of this particular issue
as a high virtue. It is lauded with great pride.
This act of abortion, feticide, murder, pregnancy
termination – whatever you wish to call it – is
disgusting and immoral. Human beings at their most
innocent and vulnerable are being killed. Many of you
are celebrating President Obama’s re-election with
great joy because of his support for the continued
legality of abortion, and frankly, this exuberant
jubilation disgusts me. I have many friends who think
that legal means have been exhausted, and that there
is essentially no difference between Republicans and
Democrats on this issue. Republicans use it to get
votes, and the legality of abortion is firmly entrenched.
I disagree, but I sympathize with this position and
understand why someone would vote Democratic
accordingly. However, every other issue, healthcare
reform, marriage equality, the economy, or taxes pales
in comparison to the murder of 1.3 million human
beings every year.

App. 70
To those who support the Democratic Party
specifically because of its position on abortion, I say to
you, “Shame!” Many have stood by in history during
genocide and other mass murders with tacit approval.
Some have stood by in fear to speak up for their own
lives and safety. Others participate and goad on. I urge
those of you engaged in promoting and continuing this
atrocity to reconsider your positions.

